October 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
RE:

Herbert H. Slatery III, et al. v. Adams & Boyle, P.C., et al. (20-482)

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed October
8, 2020, and was placed on the Court’s docket on October 14, 2020. Our
response is currently due on November 13, 2020.
On behalf of all Respondents, I am writing to request a 30-day extension until
December 14, 2020, because the lead counsel for Respondents is currently out on
parental leave, and other counsel for Respondents currently have a number of
other pre-existing professional and personal commitments. Petitioners do not
oppose this request.
Thank you very much for your consideration.
Respectfully,

Autumn Katz

cc: Sarah K. Campbell, Esq., Counsel for Petitioners

